APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order Denying Petition for Review En
Banc in the Supreme Court of California
(August 12, 2020) . . . . . . . . . . . . . App. 1
Appendix B Opinion in the Court of Appeal of the
State of California Second Appellate
District Division One
(April 30, 2020) . . . . . . . . . . . . . . . App. 2
Appendix C Order Granting Motion in the
Superior Court of California, County
of Los Angeles
(June 11, 2018) . . . . . . . . . . . . . . App. 21
Appendix D Statutory Provisions Involved . . App. 23

App. 1

APPENDIX A
IN THE SUPREME COURT OF CALIFORNIA
Court of Appeal, Second Appellate District,
Division One - No. B291695
S262418
En Banc
[Filed: August 12, 2020]
_______________________________________
BALUBHAI PATEL et al.,
)
Plaintiffs and Appellants,
)
)
v.
)
)
MANUEL CHAVEZ,
)
Defendant and Respondent. )
_______________________________________)
The petition for review is denied.
The request for an order directing depublication of the
opinion is denied.

CANTIL-SAKAUYE
Chief Justice

App. 2

APPENDIX B
CERTIFIED FOR PARTIAL PUBLICATION*
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION ONE
B291695
(Los Angeles County Super. Ct. No. BC681074)
[Filed: April 30, 2020]
_______________________________________
BALUBHAI PATEL et al.,
)
)
Plaintiffs and Appellants,
)
)
v.
)
)
MANUEL CHAVEZ,
)
)
Defendant and Respondent. )
_______________________________________)

*

Pursuant to California Rules of Court, rules 8.1100 and 8.1110,
this opinion is certified for publication with the exception of the
Factual and Procedural Summary post, and the Discussion post,
parts C. and D.

App. 3
APPEAL from a judgment of the Superior Court of
Los Angeles County, Maureen Duffy-Lewis, Judge. Affirmed.
Frank A. Weiser for Plaintiffs and Appellants.
Law Office of Eugene Lee and Eugene D. Lee for
Defendant and Respondent.
Plaintiffs and appellants Balubhai Patel, DTWO &
E, Inc. (DTWO), and Stuart Union, LLC (collectively,
plaintiffs) appeal from the trial court’s order granting
defendant and respondent Manuel Chavez’s motion to
strike plaintiffs’ complaint against Chavez, pursuant to
the anti-SLAPP statute, Code of Civil Procedure
section 425.16. Plaintiffs’ complaint alleges that
Chavez, plaintiffs’ former employee, falsely testified at
a Labor Commissioner’s hearing on wage claims
Chavez filed against plaintiffs, which the Labor
Commissioner ultimately decided in Chavez’s favor. On
this basis, plaintiffs’ complaint asserts a federal civil
rights cause of action against all defendants under
section 1983 of title 42 of the United States Code
(section 1983). The complaint also contains a petition
for writ of mandate addressed to all defendants seeking
reversal of the Labor Commissioner’s award.1
1

The complaint also named two Labor Commissioner officials as
defendants to all causes of action. Chavez’s anti-SLAPP motion
seeks to strike “the complaint,” not just the causes of action alleged
against Chavez, and the language of the court’s order grants the
motion without caveat. (Capitalization and boldface omitted.) But
the Labor Commissioner officials named as defendants did not join
Chavez’s anti-SLAPP motion, and the court has since sustained
their demurrer to a first amended complaint filed while Chavez’s
motion to strike was pending, leading the parties to stipulate to
dismissing them as incorrectly named parties to this appeal. Thus,

App. 4
On appeal, plaintiffs argue that the anti-SLAPP
statute does not apply to federal causes of action, and
that even if it did apply, plaintiffs met their burden of
establishing a probability of success. We disagree on
both points and affirm the trial court’s order granting
plaintiffs’ motion to strike the complaint to the extent
it asserts causes of action against Chavez.
FACTUAL AND PROCEDURAL SUMMARY
From 2002 to 2016, Chavez worked as an on-site
property manager of the Stuart Hotel, a residential
hotel owned and operated by plaintiffs.
A. Labor Commissioner Proceedings Against
Plaintiffs
In October 2015, Chavez filed a wage claim with the
California Labor Board, alleging plaintiffs paid Chavez
less than minimum wage and engaged in other wage
claim violations. On January 12, 2017 and March 6,
2017, a Berman hearing2 took place regarding Chavez’s
the record is inconsistent with reading the order on appeal
literally, and we instead construe it as striking the complaint only
to the extent it alleges causes of action against Chavez.
2

A Berman hearing is “a dispute resolution forum established by
the Legislature to assist employees in recovering wages owed.”
(Sonic-Calabasas A, Inc. v. Moreno (2013) 57 Cal.4th 1109, 1124.)
“ ‘A Berman hearing is conducted by a deputy [Labor]
[C]ommissioner, “. . . [and] is designed to provide a speedy,
informal, and affordable method of resolving wage claims. In brief,
in a Berman proceeding the [C]ommissioner may hold a hearing on
the wage claim; the pleadings are limited to a complaint and an
answer; . . . The [C]ommissioner must decide the claim within 15
days after the hearing. ([Lab. Code,] § 98.1.)” [Citation.] The

App. 5
claims against plaintiffs. Chavez and others testified
under oath. (See Cal. Code Regs., tit. 8, § 13505 [at
Berman hearing, “[o]ral evidence shall be taken only on
oath or affirmation”].) On September 26, 2017, the
Labor Commissioner issued a ruling in Chavez’s favor,
awarding him approximately $235,000 in unpaid
wages, penalties, and interest.
B. Plaintiffs’ Lawsuit
On October 26, 2017, plaintiffs brought the action
underlying this appeal3 against Chavez and two Labor
Commissioner officials, Maria Huerte, who had
presided over the Berman hearing, and Julie Su. The
complaint alleges that, at the Berman hearing, Chavez
“produced a falsified report of the claimed monies
owed[,] falsely testified and gave perjured testimony in
support of his complaint.” The complaint further
alleges that “[p]laintiffs presented competent and
credible evidence at the hearing that no monies were
owed to [Chavez] on his complaint,” and that the Labor
Commissioner’s ruling was illegal and/or incorrect in
various ways.
hearings are not governed by the technical rules of evidence, and
any relevant evidence is admitted “if it is the sort of evidence on
which responsible persons are accustomed to rely in the conduct of
serious affairs.” (Cal. Code Regs., tit. 8, § 13502.)’ ” (SonicCalabasas A, Inc. v. Moreno, supra, 57 Cal.4th at p. 1128.)
3

This was not the first lawsuit DTWO had filed against Chavez
based on his wage claims. In December 2015, DTWO filed and
served a complaint against Chavez, alleging Chavez was an
independent contractor who had stolen hotel rental income and
seeking an accounting of such income. DTWO dismissed the suit
the day before trial.

App. 6
The complaint characterizes this conduct by all
defendants as a “state action” that “violated the
constitutional and civil rights of plaintiffs,” as a result
of which plaintiffs suffered damages. Based thereon,
the complaint asserts a section 1983 cause of action
and seeks $10 million in damages from Chavez, Su,
and Huerte. The complaint also contains a petition–
addressed to all defendants–“[f]or a writ of mandate
vacating and reversing the [Labor Commissioner’s
decision].” The complaint alleges this petition is
“pursuant to . . . Labor Code [s]ection[ ] 98.2, and/or . . .
Code of Civil Procedure [s]ection 1094.5” and claims
that “[p]laintiffs are entitled to a de novo hearing on
this matter.”
C. Procedural History Following Complaint
In November 2017, Huerte and Su filed a demurrer.
Shortly thereafter, Chavez filed the instant antiSLAPP motion seeking to strike the complaint. Chavez
argued that the causes of action arose solely from
Chavez’s testimony, which is protected conduct, and
that therefore, as a matter of law, plaintiffs could not
show a likelihood of success.
On June 11, 2018, the trial court held a hearing on
Chavez’s anti-SLAPP motion. In an order granting the
motion that same day, the court concluded that the
causes of action in the complaint arose from conduct
protected under the anti-SLAPP statute, namely
“testimony made in the underlying litigation before the
Labor Commission[er].” It further concluded that,
under the requisite anti-SLAPP analysis, this shifted
the burden to plaintiffs to show a probability of success,
and that plaintiffs could not do so, because “[Chavez’s]

App. 7
[s]tatements [during the Berman hearing] are
absolutely privileged under Civil Code [section] 47,
[subdivision] (b)–the [l]itigation [p]rivilege.”
Plaintiffs timely appealed the order.
DISCUSSION
Plaintiffs argue that the trial court erred in
granting Chavez’s anti-SLAPP motion because the
statute does not apply to federal causes of action
brought in state court. In the alternative, plaintiffs
argue that the trial court incorrectly concluded that
plaintiffs failed to show a probability of success on their
writ of mandate and section 1983 claims against
Chavez, as is required under the applicable antiSLAPP analysis. We disagree with both arguments.
A. Anti-SLAPP Analytical Framework
In ruling on an anti-SLAPP motion, a court is
required to engage in a two-pronged analysis. First, a
court must determine whether the complaint alleges
protected free speech or petitioning activity, and
whether the claims the movant seeks to strike “aris[e]
from” such protected activity. (Baral v.. Schnitt (2016)
1 Cal.5th 376, 396 (Baral); Navellier v. Sletten (2002)
29 Cal.4th 82, 89.) If so, the burden shifts to the
plaintiff to establish a prima facie showing of merit in
“ ‘a summary-judgment-like procedure.’ ” (Soukup v.
Law Offices of Herbert Hafif (2006) 39 Cal.4th 260, 278,
291 (Soukup).) Any claims and/or allegations as to
which the plaintiff fails to make such a prima facie
showing must be stricken. (Baral, supra, 1 Cal.5th at
p. 396.)

App. 8
On appeal, we review a trial court’s decision
regarding an anti-SLAPP motion de novo, “engaging in
the same two-step process.” (Tuszynska v. Cunningham
(2011) 199 Cal.App.4th 257, 266–267, disapproved on
another point in Park v. Board of Trustees of California
State University (2017) 2 Cal.5th 1057, 1071.) In so
doing, we consider “the pleadings, and supporting and
opposing affidavits . . . upon which the liability or
defense is based.” (Code Civ. Proc., § 425.16, subd.
(b)(2).)
B. The Anti-SLAPP Statute Applies to Section
1983 Claims Brought in State Court
Plaintiffs argue that “[i]t is well established, and
undisputed, that federal claims are not subject to
California’s Anti[-SLAPP] statute.” We disagree. The
cases plaintiffs cite for this proposition address “the
applicability of the anti-SLAPP statute to claims filed
in federal court,” not state court. (See, e.g., Globetrotter
Software v. Elan Computer Group (N.D.Cal. 1999) 63
F.Supp.2d 1127, 1129, italics added.)
An analysis of whether to apply the anti-SLAPP
statute to a federal claim in state court begins with the
observations that the anti-SLAPP statute is a
procedural law, rather than a substantive immunity
(see Briggs v. Eden Council for Hope & Opportunity
(1999) 19 Cal.4th 1106, 1121 [anti-SLAPP statute
affords “procedural protections”]; San Diegans for Open
Government v. San Diego State University Research
Foundation (2017) 13 Cal.App.5th 76, 95 [“the antiSLAPP statute does not immunize or insulate
defendants from any liability . . . [i]t only provides a
procedure for weeding out, at an early stage, such

App. 9
claims that are meritless”] (italics omitted)), and that
a forum generally applies its own procedural law to
cases before it. (See Felder v. Casey (1988) 487 U.S.
131, 138 (Felder).) As such, the anti-SLAPP statute will
apply to adjudication of a federal claim in state court
unless either (1) “the federal statute provides
otherwise” (Chavez v. Keat (1995) 34 Cal.App.4th 1406,
1413-1414 (Chavez)), or (2) the anti-SLAPP statute
“affect[s] plaintiffs’ substantive federal rights,” and is
thus preempted. (County of Los Angeles v. Superior
Court (2006) 139 Cal.App.4th 8, 17 (County of Los
Angeles), citing Felder, supra, 487 U.S. at p. 138.)
Neither is the case here.
As to the first possibility, “[n]othing in section 1983
imposes federal procedural law upon state courts trying
civil rights actions.” (Chavez, supra, 34 Cal.App.4th at
p. 1414.) On this basis, California courts have held that
the anti-SLAPP statute does apply to federal section
1983 claims a plaintiff chooses to file in California state
court. (See Bradbury v. Superior Court (1996) 49
Cal.App.4th 1108, 1117–1118 (Bradbury); Vergos v.
McNeal (2007) 146 Cal.App.4th 1387, 1392, fn. 4
(Vergos).)
Published cases do not appear to have fully
analyzed the second possibility, however. In Bradbury,
for example, the court rejected a claim that it would
“violate[ ] federal substantive law” to apply the antiSLAPP statute to a federal civil rights action brought
in state court, but relied only on the procedural versus
substantive distinction in Chavez, supra, 34
Cal.App.4th at pages 1413-1414. (Bradbury, supra, 49
Cal.App.4th at pp. 1117-1118; see also Vergos, supra,

App. 10
146 Cal.App.4th at p. 1392, fn. 4 [relying on Bradbury];
Tichinin v. City of Morgan Hill (2009) 177 Cal.App.4th
1049, 1055–1056 [relying on Bradbury and Vergos].)
We analyze the second possibility now and conclude
that section 1983 does not preempt application of the
anti-SLAPP statute to section 1983 claims in state
court.
When a plaintiff chooses to bring a federal claim in
state court, “state rules of evidence and procedure
apply unless application of those rules would affect
plaintiffs’ substantive federal rights” (County of Los
Angeles, supra, 139 Cal.App.4th at p. 17), and thereby
“ ‘ “stan[d] as an obstacle to the accomplishment and
execution of the full purposes and objectives of
Congress” ’ ” in enacting the underlying federal statute.
(Felder, supra, 487 U.S. at p. 138, quoting Perez v.
Campbell (1971) 402 U.S. 637, 649.) This is not the
case with our state’s anti-SLAPP statute and section
1983. Code of Civil Procedure section 425.16 applies
neutrally to all types of causes of action and does not
specifically target government conduct. (See Church of
Scientology v. Wollersheim (1996) 42 Cal.App.4th 628,
652 [“all kinds of claims could achieve the objective of
a SLAPP suit”]; cf. Felder, supra, 487 U.S. at pp. 144–
145 [state notice-of-claim statutes applying only to
state government action preempted by section 1983,
because government defendants are “the very persons
and entities Congress intended to subject to liability”
via section 1983].) The purpose of section 1983 claims
is to “serve as an antidote to discriminatory state laws,
to protect federal rights where state law is inadequate,
and to protect federal rights where state processes are
available in theory but not in practice.” (Williams v.

App. 11
Horvath (1976) 16 Cal.3d 834, 841.) Plaintiffs have
identified no basis on which we might conclude that the
expedited summary-judgment-like procedure created
by the anti-SLAPP statute might “ ‘ “stan[d] as an
obstacle to the accomplishment and execution of” ’ ”
this purpose. (Felder, supra, at p. 138.)
Of course, because an anti-SLAPP motion
automatically stays discovery, a plaintiff may not have
had the benefit of full discovery when defending the
merits of his section 1983 claim under this expedited
procedure. (See Code Civ. Proc., § 425.16, subd. (g).)
But a court may permit discovery during the pendency
of an anti-SLAPP motion when the court deems it
necessary: “Courts deciding anti-SLAPP motions . . .
are empowered to mitigate their impact by ordering,
where appropriate, ‘that specified discovery be
conducted notwithstanding’ the motion’s pendency.”
(Equilon Enterprises v. Consumer Cause, Inc. (2002) 29
Cal.4th 53, 66, quoting Code Civ. Proc., § 425.16, subd.
(g).) More importantly, the “second-step burden” a
plaintiff may be forced to meet without the benefit of
full discovery “is a limited one. . . . [T]he bar sits low[ ],
at a demonstration of ‘minimal merit’ [citation]. At this
stage, ‘ “[t]he court does not weigh evidence or resolve
conflicting factual claims. Its inquiry is limited to
whether the plaintiff has stated a legally sufficient
claim and made a prima facie factual showing
sufficient to sustain a favorable judgment. It accepts
the plaintiff’s evidence as true, and evaluates the
defendant’s showing only to determine if it defeats the
plaintiff’s claim as a matter of law.” ’ ” (Wilson v. Cable
News Network, Inc. (2019) 7 Cal.5th 871, 891.)
Moreover, a court will require a plaintiff to make this

App. 12
minimal showing only after the defendant has
established under the first prong that the plaintiff’s
lawsuit arises from protected activity. Finally, unlike
many of the procedural statutes courts have concluded
are preempted, the anti-SLAPP statute does not
“condition ‘ . . . [¶] . . . plaintiff’s right of recovery under
. . . section 1983’ ” upon whether he complied with the
anti-SLAPP statute (County of Los Angeles, supra, 139
Cal.App.4th at p. 18), but rather, on whether the
plaintiff has established some probability that he has
a right to recovery at all under section 1983. (Cf.
Felder, supra, 487 U.S. at p. 144 [state notice-of-claim
statute effectively created a “condition precedent” to
bringing a federal claim that was unrelated to the
merits of the claim].) Thus, the enforcement of antiSLAPP discovery restrictions in section 1983 actions
will not “frequently and predictably produce different
outcomes . . . based solely on whether the claim is
asserted in state or federal court.” (Felder, supra, at
p. 131.)
We must further consider whether the anti-SLAPP
law’s mandatory attorney fee shifting provisions (Code
Civ. Proc., § 425.16, subd. (c))–either individually or
considered together with the discovery restrictions
noted above–unduly burden a substantive federal right
when applied to section 1983 claims. We conclude they
do not. These fee shifting provisions provide that “a
prevailing defendant on a special motion to strike shall
be entitled to recover his or her attorney’s fees and
costs. If the court finds that a special motion to strike
is frivolous or is solely intended to cause unnecessary
delay, the court shall award costs and reasonable
attorney’s fees to a plaintiff prevailing on the motion.”

App. 13
(Code Civ. Proc., § 425.16, subd. (c)(1).) Although the
potential for such fee-shifting might discourage some
plaintiffs from pursuing section 1983 claims, that
possibility does not rise to the level of defeating a
plaintiff’s ability to vindicate his federal rights through
a section 1983 claim, particularly in light of the low bar
plaintiffs must meet in order to save such claims and
avoid attorney fees under the anti-SLAPP statute. The
anti-SLAPP fee-shifting provisions are also partially
reciprocal, such that defendants may be wary of
bringing anti-SLAPP motions for the same reasons
plaintiffs may be wary of filing lawsuits potentially
subject to such motions. (See Code Civ. Proc., § 425.16,
subd. (c)(1).) Plaintiffs have cited no authority
suggesting that federal law preempts every state
procedure that may place some additional burden on a
plaintiff who choses to vindicate a federal right in state
court. The procedural devices in the anti-SLAPP
statute do not rise to the level necessary for them to
“defeat” a “federal right.”
The trial court therefore correctly applied the antiSLAPP statute to plaintiffs’ section 1983 claim.
C. Prong One: All Claims Against Chavez Arise
from Protected Conduct
We therefore turn to the first prong of the antiSLAPP analysis, under which we must determine
whether the causes of action against Chavez arise from
activity protected under the anti-SLAPP statute.
The complaint alleges no conduct by Chavez other
than his having testified falsely at the Berman hearing.
Testimony offered during “official proceedings”–even if

App. 14
false–“constitute[s] the ‘valid exercise’ of the
constitutional right of free speech to which the
Legislature referred in [the anti-SLAPP statute].”
(Haight Ashbury Free Clinics, Inc. v. Happening House
Ventures (2010) 184 Cal.App.4th 1539, 1549; see Code
Civ. Proc., § 425.16, subd. (e)(1) [reference to “ ‘act in
furtherance of a person’s right of petition or free
speech’ ” in the statute “includes . . . any written or oral
statement or writing made before a legislative,
executive, or judicial proceeding, or any other official
proceeding authorized by law”].)
Plaintiffs briefly argue the complaint “is alleging far
more than just Chavez’s petitioning activity” because
“[t]he claims include a claim that the bond undertaking
under . . . Labor Code [section] 98[, subdivision] (b) (for
filing this action) unconstitutionally burdens
[plaintiffs’] petition[ing] rights in this case, and that
the . . . wage award illegally applied Labor Code
[section] 98[, subdivision] (b) retroactively to . . . Patel.”
This argument reflects a legal characterization of
Chavez’s protected conduct; it does not identify
additional, nonprotected conduct. “In deciding whether
the initial ‘arising from’ requirement is met, a court
considers ‘the facts upon which the liability or defense
is based’ ”–not legal characterizations of such facts.
(Navellier v. Sletten, supra, 29 Cal.4th at p. 89 (italics
added), citing Code Civ. Proc., § 425.16, subd. (b)(2).)
Thus, the trial court correctly concluded that the
causes of action against Chavez arise from conduct
protected by the anti-SLAPP statute.

App. 15
D. Prong Two: The Trial Court Correctly
Concluded Plaintiffs Failed to Establish a
Probability of Success on Their Claims
Against Chavez
In the second prong of the anti-SLAPP analysis,
plaintiffs bear the burden of establishing a probability
of prevailing on the claims arising from protected
activity. The trial court concluded that plaintiffs failed
to do so because their claims were barred as a matter
of law by the California litigation privilege. Plaintiffs
argue on appeal that this state law privilege cannot bar
a federal section 1983 claim. But even if the state law
litigation privilege does not apply, plaintiffs’ claims still
would not assert any legally viable cause of action
against Chavez.
1. Section 1983 Claim
Section 1983 “preserves constitutional rights from
infringement by persons who act under federal or state
authority, not private citizens who commit wrongful
acts.” (Spampinato v. M. Breger & Co. (2d Cir. 1959)
270 F.2d 46, 49.) Thus, “[a] prerequisite for any relief
under section 1983 is that the defendant acted under
color of state law.” (McMahon v. Lopez (1988) 199
Cal.App.3d 829, 837.)
A private party is presumed not to act under color
of state law. (Sutton v. Providence St. Joseph Medical
Center (9th Cir. 1999) 192 F.3d 826, 835 (Sutton).) For
private conduct to constitute governmental action,
there must be “something more.” (Lugar v. Edmondson
Oil Co., Inc. (1982) 457 U.S. 922, 939 (Lugar); Sutton,
supra, 192 F.3d at p. 835.)

App. 16
Plaintiffs argue that, because the Labor
Commissioner’s decision “essentially relied on
[Chavez’s] testimony in issuing the award” to Chavez,
Chavez’s act of testifying was sufficiently connected
with the Labor Commissioner’s state action, and the
requisite “something more” is present. Were this the
case, however, every witness offering important
testimony would be acting under color of state law and
potentially subject to section 1983 liability. Neither law
nor logic supports such a result. Indeed, federal law
(like California state law) is inconsistent with such a
result: Under federal law, witnesses in judicial
proceedings enjoy absolute immunity from suits based
on the testimony they offer, including in suits under
section 1983. (See Briscoe v. LaHue (1983) 460 U.S.
325, 329 (Briscoe) [“[section] 1983 does not allow
recovery of damages against a private party for
testimony in a judicial proceeding”]; Blevins v. Ford
(9th Cir. 1978) 572 F.2d 1336, 1339 (Blevins) [a witness
“cannot be subjected to civil liability based upon his
testimony”]; see also Holt v. Castaneda (9th Cir. 1987)
832 F.2d 123, 125–126 [“many courts, including the
Supreme Court itself, have understood Briscoe to apply
. . . to judicial proceedings generally”].) Plaintiffs cite
no authority holding or even suggesting that a private
citizen’s testimony constitutes action “under color of
state law.”
Nor does Chavez’s role as the plaintiff in the Labor
Commissioner proceedings change this analysis. As a
general rule, “[p]rivate use of state-sanctioned private
remedies or procedures does not rise to the level of
state action.” (Tulsa Professional Collection Services v.
Pope (1988) 485 U.S. 479, 485–486.) What conduct of

App. 17
private parties may be “fairly attributable [to state
action] is a matter of normative judgment, and the
criteria lack rigid simplicity.” (Brentwood Acad. v.
Tennessee Secondary Sch. Athletic Assn. (2001) 531
U.S. 288, 295–296.) What is clear, however, is that a
“state action may be found if, though only if, there is
such a ‘close nexus between the [s]tate and the
challenged action’ that seemingly private behavior ‘may
be fairly treated as that of the [s]tate itself.’ ” (Id. at
p. 295.) There is no such nexus here. A private citizen
who brings a wage claim or testifies before the Labor
Commissioner is not performing any government
function. Nor does the law delegate any role or
responsibility to a private citizen by giving him the
ability to pursue a wage claim at an administrative
hearing and testify on his own behalf. Indeed, plaintiffs
have not cited any case in any jurisdiction that
suggests either prosecuting a claim or testifying in an
official proceeding constitutes state action. Rather, the
cases they cite deal with circumstances not remotely
similar to this case. (See Edmonson v. Leesville
Concrete Co., Inc. (1991) 500 U.S. 614, 627 [private
attorney’s use of preemptory challenges in jury
selection actionable under section 1983 because
attorney performing “a unique governmental function
delegated to private litigants by the government”];
Lugar, supra, 457 U.S. at pp. 941–942 [involving
“private party’s joint participation with state officials
in the seizure of disputed property” under state
procedure “whereby state officials will attach property
on the ex parte application of one party to a private
dispute”] (italics omitted); Howerton v. Gabica (9th Cir.
1983) 708 F.2d 380, 383 [landlord’s eviction of its
tenant was under color of state law where police were

App. 18
actively involved in each step of the eviction].)
Moreover, as discussed above, reading any of the cases
plaintiffs cite as supporting plaintiffs’ state action
argument would be inconsistent with the United States
Supreme Court’s conclusion that testimony in
adjudicative proceedings is absolutely privileged from
section 1983 liability. (See Briscoe, supra, 460 U.S. at
p. 329; Blevins, supra, 572 F.2d at p. 1339.)
Plaintiffs’ final argument that the question of state
action is “highly factual . . . [and] makes a motion to
dismiss improper” only underscores that they failed to
meet their burden below. The second prong of the antiSLAPP analysis employs not a motion to dismiss
standard, but a “ ‘summary-judgment-like procedure,’ ”
based on facts offered by the plaintiff. (See Soukup,
supra, 39 Cal.4th at pp. 278, 291.)
Because plaintiffs have offered no facts suggesting
Chavez acted under color of state law, their section
1983 claim cannot survive the second prong of the antiSLAPP analysis.
2. Writ of Mandate
Plaintiffs’ “second cause of action” for “writ of
mandate”–also referred to in the complaint as a
petition for same–does not allege a viable cause of
action against Chavez. (Capitalization, underlining,
and boldface omitted.) The complaint cites as a legal
basis for this cause of action Code of Civil Procedure
section 1094.5 and Labor Code section 98.2.
Code of Civil Procedure section 1094.5 authorizes
writs of administrative mandate, “issued for the
purpose of inquiring into the validity of any final

App. 19
administrative order or decision.” (Code Civ. Proc.,
§ 1094.5, subd. (a).) A writ of administrative mandate
serves the limited purpose of determining “whether the
[administrative agency] has proceeded without, or in
excess of, jurisdiction; whether there was a fair trial;
and whether there was any prejudicial abuse of
discretion.” (Code Civ. Proc., § 1094.5, subd. (b).) Writ
relief is, therefore, only available against the
administrative agency that made the challenged
decision. Plaintiffs cannot seek such relief from
Chavez.
Plaintiffs attempt to avoid this obvious and fatal
flaw by suggesting their second cause of action
constitutes an appeal from the Labor Commissioner
decision under Labor Code section 98.2,4 and that
Chavez is necessarily a party to such an appeal by
virtue of his being a party to the Labor Commissioner
proceedings. Whether construed as an appeal from the
Labor Commissioner’s order or a petition for writ of
mandate, however, plaintiffs’ second cause of action
seeks relief Chavez cannot help provide “vacating and
reversing the [Labor Commissioner’s decision].” Thus,
even if the second cause of action were an appeal from
an administrative award–and we do not conclude that
it is–it still is not a legally viable claim against Chavez.
4

Labor Code section 98.2 provides in pertinent part that, “[w]ithin
10 days after service of notice of an order, decision, or award [of the
Labor Commissioner] the parties may seek review by filing an
appeal to the superior court, where the appeal shall be heard de
novo.” (Lab. Code, § 98.2, subd. (a).) Plaintiffs’ second cause of
action states that “[p]laintiffs are entitled to a de novo hearing on
this matter and for a reversal of the [Labor Commissioner’s
decision].”

App. 20
Plaintiffs thus failed to meet their burden under the
second prong of the anti-SLAPP statute with respect to
both claims against Chavez, because they both arise
from Chavez’s protected conduct at the Berman
hearing. Accordingly, the trial court correctly granted
Chavez’s motion to strike the complaint as against
Chavez.
DISPOSITION
The order is affirmed. Respondent is a warded his
costs on appeal.
CERTIFIED FOR PARTIAL PUBLICATION.
ROTHSCHILD, P. J.
We concur:
CHANEY, J.
WHITE, J.*

*

Judge of the Los Angeles Superior Court, assigned by the Chief
Justice pursuant to article VI, section 6 of the California
Constitution.

App. 21

APPENDIX C
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
BC681074
[Filed: June 11, 2018]
_________________________________
BALUBHAI PATEL ET AL
)
)
VS
)
)
JULIE A SU ET AL
)
_________________________________)
Plaintiff Counsel

FRANK A. WEISER (X)

Defendant Counsel EUGENE D. LEE (X)
JESSENYA Y. HERNANDEZ (X)
NATURE OF PROCEEDINGS:
DEFENDANT MANUEL CHAVEZ’S SPECIAL
MOTION TO STRIKE THE COMPLAINT (SLAPP
CCP 426.16)
CASE MANAGEMENT CONFERENCE
The Order Appointing Court Approved Reporter as
Official Reporter Pro Tempore is signed and filed this
date.
Special motion to strike is called for hearing and
argued.

App. 22
Anti-SLAPP looks at the substance of the case. This
matter is based upon testimony made in the underlying
litigation before the Labor Commission, it, therefore,
constitutes protected speech within the anti-SLAPP
statute. California Code of Civil Procedure section
425.16(e)(1) and (2); Haight Ashbury Free Clinics v.
Happening House Ventures (2010) 184 Cal App 4th
1539; 1548. Defendant meets his burden.
Burden shift to the plaintiff. Statements are absolutely
priviledged under Civil Code 47(b) – the Litigation
Privilege.
Motion GRANTED.
Case management conference continued to 08/15/18 at
9:30 am in this Department.
Counsel for defendant Manuel Chavez to give notice.

App. 23

APPENDIX D
42 U.S. Code § 1983.
Civil action for deprivation of rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the
District of Columbia.
42 U.S. Code § 1988 Proceedings in vindication of civil rights
(a) APPLICABILITY OF STATUTORY AND COMMON LAW
The jurisdiction in civil and criminal matters conferred
on the district courts by the provisions of titles 13, 24,
and 70 of the Revised Statutes for the protection of all
persons in the United States in their civil rights, and
for their vindication, shall be exercised and enforced in
conformity with the laws of the United States, so far as

App. 24
such laws are suitable to carry the same into effect; but
in all cases where they are not adapted to the object, or
are deficient in the provisions necessary to furnish
suitable remedies and punish offenses against law, the
common law, as modified and changed by the
constitution and statutes of the State wherein the court
having jurisdiction of such civil or criminal cause is
held, so far as the same is not inconsistent with the
Constitution and laws of the United States, shall be
extended to and govern the said courts in the trial and
disposition of the cause, and, if it is of a criminal
nature, in the infliction of punishment on the party
found guilty.
(b) ATTORNEY’S FEES
In any action or proceeding to enforce a provision of
sections 1981, 1981a, 1982, 1983, 1985, and 1986 of
this title, title IX of Public Law 92-318 [20 U.S.C. 1681
et seq.], the Religious Freedom Restoration Act of 1993
[42 U.S.C. 2000bb et seq.], the Religious Land Use and
Institutionalized Persons Act of 2000 [42 U.S.C. 2000cc
et seq.], title VI of the Civil Rights Act of 1964 [42
U.S.C. 2000d et seq.], or section 12361 of title 34, the
court, in its discretion, may allow the prevailing party,
other than the United States, a reasonable attorney’s
fee as part of the costs, except that in any action
brought against a judicial officer for an act or omission
taken in such officer’s judicial capacity such officer
shall not be held liable for any costs, including
attorney’s fees, unless such action was clearly in excess
of such officer’s jurisdiction.
(c) EXPERT FEES
In awarding an attorney’s fee under subsection (b) in

App. 25
any action or proceeding to enforce a provision of
section 1981 or 1981a of this title, the court, in its
discretion, may include expert fees as part of the
attorney’s fee.
CODE OF CIVIL PROCEDURE - CCP
PART 2. OF CIVIL ACTIONS [307 - 1062.20]
( Part 2 enacted 1872. )
TITLE 6. OF THE PLEADINGS IN CIVIL
ACTIONS [420 - 475] ( Title 6 enacted 1872. )
CHAPTER 2. Pleadings Demanding
Relief [425.10 - 429.30] ( Chapter 2 repealed
and added by Stats. 1971, Ch. 244. )
ARTICLE 1. General Provisions [425.10-425.55]
( Article 1 added by Stats. 1971, Ch. 244. )
425.16. (a) The Legislature finds and declares that
there has been a disturbing increase in lawsuits
brought primarily to chill the valid exercise of the
constitutional rights of freedom of speech and petition
for the redress of grievances. The Legislature finds and
declares that it is in the public interest to encourage
continued participation in matters of public
significance, and that this participation should not be
chilled through abuse of the judicial process. To this
end, this section shall be construed broadly.
(b) (1) A cause of action against a person arising from
any act of that person in furtherance of the person’s
right of petition or free speech under the United States
Constitution or the California Constitution in
connection with a public issue shall be subject to a
special motion to strike, unless the court determines

App. 26
that the plaintiff has established that there is a
probability that the plaintiff will prevail on the claim.
(2) In making its determination, the court shall
consider the pleadings, and supporting and opposing
affidavits stating the facts upon which the liability or
defense is based.
(3) If the court determines that the plaintiff has
established a probability that he or she will prevail on
the claim, neither that determination nor the fact of
that determination shall be admissible in evidence at
any later stage of the case, or in any subsequent action,
and no burden of proof or degree of proof otherwise
applicable shall be affected by that determination in
any later stage of the case or in any subsequent
proceeding.
(c) (1) Except as provided in paragraph (2), in any
action subject to subdivision (b), a prevailing defendant
on a special motion to strike shall be entitled to recover
his or her attorney’s fees and costs. If the court finds
that a special motion to strike is frivolous or is solely
intended to cause unnecessary delay, the court shall
award costs and reasonable attorney’s fees to a plaintiff
prevailing on the motion, pursuant to Section 128.5.
(2) A defendant who prevails on a special motion to
strike in an action subject to paragraph (1) shall not be
entitled to attorney’s fees and costs if that cause of
action is brought pursuant to Section 6259, 11130,
11130.3, 54960, or 54960.1 of the Government Code.
Nothing in this paragraph shall be construed to
prevent a prevailing defendant from recovering
attorney’s fees and costs pursuant to subdivision (d) of

App. 27
Section 6259, or Section 11130.5 or 54960.5, of the
Government Code.
(d) This section shall not apply to any enforcement
action brought in the name of the people of the State of
California by the Attorney General, district attorney, or
city attorney, acting as a public prosecutor.
(e) As used in this section, “act in furtherance of a
person’s right of petition or free speech under the
United States or California Constitution in connection
with a public issue” includes: (1) any written or oral
statement or writing made before a legislative,
executive, or judicial proceeding, or any other official
proceeding authorized by law, (2) any written or oral
statement or writing made in connection with an issue
under consideration or review by a legislative,
executive, or judicial body, or any other official
proceeding authorized by law, (3) any written or oral
statement or writing made in a place open to the public
or a public forum in connection with an issue of public
interest, or (4) any other conduct in furtherance of the
exercise of the constitutional right of petition or the
constitutional right of free speech in connection with a
public issue or an issue of public interest.
(f) The special motion may be filed within 60 days of
the service of the complaint or, in the court’s discretion,
at any later time upon terms it deems proper. The
motion shall be scheduled by the clerk of the court for
a hearing not more than 30 days after the service of the
motion unless the docket conditions of the court require
a later hearing.

App. 28
(g) All discovery proceedings in the action shall be
stayed upon the filing of a notice of motion made
pursuant to this section. The stay of discovery shall
remain in effect until notice of entry of the order ruling
on the motion. The court, on noticed motion and for
good cause shown, may order that specified discovery
be conducted notwithstanding this subdivision.
(h) For purposes of this section, “complaint” includes
“cross-complaint” and “petition,” “plaintiff” includes
“cross-complainant” and “petitioner,” and “defendant”
includes “cross-defendant” and “respondent.”
(i) An order granting or denying a special motion to
strike shall be appealable under Section 904.1.
(j) (1) Any party who files a special motion to strike
pursuant to this section, and any party who files an
opposition to a special motion to strike, shall, promptly
upon so filing, transmit to the Judicial Council, by email or facsimile, a copy of the endorsed, filed caption
page of the motion or opposition, a copy of any related
notice of appeal or petition for a writ, and a conformed
copy of any order issued pursuant to this section,
including any order granting or denying a special
motion to strike, discovery, or fees.
(2) The Judicial Council shall maintain a public record
of information transmitted pursuant to this subdivision
for at least three years, and may store the information
on microfilm or other appropriate electronic media.
(Amended by Stats. 2014, Ch. 71, Sec. 17. (SB 1304)
Effective January 1, 2015.)

